CERTIFICATE OF SERVICE
No. 20-994
VOLKSWAGEN GROUP OF AMERICA, INC., et al.,
Petitioners,

v.

THE ENVIRONMENTAL PROTECTION COMMISSION
OF HILLSBOROUGH COUNTY, FLORIDA,
AND SALT LAKE COUNTY, UTAH,
Respondents.
I, Carter G. Phillips, do hereby certify that, on this sixteenth day of February,
2021, I caused a copy and an electronic copy of the Brief Amici Curiae of
International Organization of Motor Vehicle Manufacturers, European Automobile
Manufacturers’ Association, and European Association of Automotive Suppliers in
Support of Petitioners in the foregoing case to be served by first class mail, postage
prepaid, and by email, on the following parties:
ROBERT J. GIUFFRA JR.
Sullivan & Cromwell
125 Broad Street
New York, NY 10004
(212) 558-3121
giuffrar@sullcrom.com
Counsel for Petitioners Volkswagen
Group of America, Inc., et al.

PETER K. STRIS
Stris and Maher LLP
777 S. Figueroa Street
Suite 3850
Los Angeles, CA 90017
(213) 995-6800
peter.stris@strismaher.com
Counsel for Respondents

MATTHEW D. SLATER
Cleary Gottlieb Steen & Hamilton LLP
2112 Pennsylvania Avenue, N.W.
Suite 1000
Washington, D.C. 20037
(202) 974-1500
mslater@cgsh.com
Counsel for Petitioner Robert Bosch LLC
/s/ Carter G. Phillips
CARTER G. PHILLIPS
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

